F1
VISA CLASSIC
CREDIT CARD ACCOUNT OPENING DISCLOSURE
This Addendum is incorporated into and becomes part of your LOANLINER® Consumer Credit Card Agreement.
Please keep this attached to your LOANLINER® Consumer Credit Card Agreement.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances
Paying Interest

For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

F2
9.25-18.25%

This APR will vary with the market based on the Prime Rate.
9.25-18.25%
F3
This APR will vary with the market based on the Prime Rate.
9.25-18.25%
F4
This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month. We will begin charging interest on
cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

F5
1.00%

of each transaction in U.S. dollars

Up to F6
$25.00
Up to F7
$25.00

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).” See
your account Agreement for more details.
Billing Rights. Information on your rights to dispute transactions and how to exercise those rights is provided in your
account Agreement.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Pay-by-Phone Fee

F8
$25.00 or the amount of the required minimum payment, whichever is
less, if you are one (1) or more days late in making a payment.
F9
$25.00 or the amount of the required minimum payment, whichever is
less.
F10
$5.00

Collection Costs. You agree to pay all costs of collecting the amount you owe under this Agreement, including court
costs and reasonable attorney's fees.
Periodic Rates.
9.25-18.25% which is a daily periodic rate of F12
0.0253%.
The Purchase APR is F11
9.25-18.25% which is a daily periodic rate of 0.0253%.
The Balance Transfer APR is F13
F14
9.25-18.25% which is a daily periodic rate of 0.0253%.
The Cash Advance APR is F15
F16

Variable Rate.
The ANNUAL PERCENTAGE RATE is subject to change on the first day of the billing cycle monthly to reflect any change
in the Index and will be determined by the Prime Rate on the third Tuesday of February, May, August, and November of
each year as published in The Wall Street Journal "Money Rates" table to which we add a margin. The ANNUAL
PERCENTAGE RATE will never be greater than 18.00%. Any increase in the ANNUAL PERCENTAGE RATE will take
the form of additional payments shown as Total Minimum Payments on the statement. If the Index is no longer available,
the Credit Union will choose a new index which is based upon comparable information.
©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

DNMFN1 (MXC452 CCM002)-e

SEE BACK OF PAGE for more important information about your account.

Margin.
Purchases will be charged at F17
5.50% above the Index.
Balance transfers will be charged at F18
5.50% above the Index.
Cash advances will be charged at F19
5.50% above the Index.

DNMFN1 (MXC452 CCM00)-e

